March 31, 2009

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Intelligent Mail/Seamless Acceptance Project
         Management (Report Number MS-AR-09-006)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
Infrastructure to Support the Intelligent Mail Barcode Full Service-Seamless Acceptance
Service Performance (IMB/SASP) project (Project Number 08RG033MS000). Our
objective was to assess the Postal Service’s approach to managing the IMB/SASP
project. This audit addresses strategic risk to the Postal Service. See Appendix A for
additional information about this audit.

Conclusion

Overall, controls were not adequate to ensure the Postal Service managed the
IMB/SASP project effectively. Specifically, the project plan did not have a strategic
focus on the value of the project to the Postal Service and the related financial
implications. Additionally, project administration activities were insufficient, and
communications, risk management, and procurement plans were not developed. The
Postal Service is at risk of project delays and cost overruns, and in fact, the project has
already been significantly delayed.

Intelligent Mail Barcode, Seamless Acceptance, and Service Performance Project
Plan Does Not Have a Strategic Focus

The IMB/SASP project plan does not have important strategic focus on the value of the
project to the Postal Service. The Postal Service did not sufficiently define key cost
savings opportunities when planning the project. The program’s complexity made
estimating potential savings and tracking related costs difficult. Therefore, management
did not thoroughly articulate or quantify the strategic and financial benefits to the Postal
Service or mailers and did not centrally track program expenditures against
commitments.
Intelligent Mail/Seamless Acceptance Project                                                     MS-AR-09-006
 Management



Strategically focusing on potential cost reductions and revenue assurance opportunities
is crucial under normal circumstances, but especially in the current economic
environment. Without defining the potential benefits and costs of the IMB/SASP project,
there is no basis for evaluating the cost savings realized, and it is unclear whether cost
savings will exceed capital and operational costs of the project. Additionally, defining
the potential benefits and costs of IMB/SASP is critical to marketing the project to the
mailing community.

Opportunities exist for potentially significant cost savings by pursuing benefits.
Automating aspects of business mail verifications that are currently performed manually
provides substantial opportunities to reduce labor costs. Expanding visibility by
transitioning from sampling verification methods can improve revenue assurance. Other
cost efficiencies can be achieved by improving mail address quality and methods of
counting and invoicing business reply mail. Lastly, management should study and
quantify how increased visibility of the mail during processing will benefit the mailing
community and the Postal Service. Adoption of the barcode may be limited without this
type of data.

Because of significant time constraints, the Postal Service is revising the current
Decision Analysis Report (DAR)1 and deferring several key features from the first two
releases of IMB/SASP. These features include support for service measurement,
Delivery Point ValidationTM2, automated verifications of presort and barcode quality, and
automated counting and invoicing of business reply mail. Since the Postal Service did
not quantify potential cost savings, management does not have the information needed
to assess the expected financial impact of delaying these benefits.

We recommend the Senior Vice President, Intelligent Mail and Address Quality, direct
the Vice President, Business Mail Entry and Payment Technologies, to:

1. Quantify strategic benefits to the Postal Service and mailers, such as automating
   business mail verifications and cost reductions attributable to improved address
   quality.

2. Prepare an integrated project budget and expenditure tool for future project releases
   to track costs and provide reports during regular status meetings.

3. Develop potential cost savings estimates to establish a baseline for comparison with
   realized savings for future project releases.




1
    Infrastructure to Support Intelligent Mail Barcodes, Service Performance and Seamless Acceptance, May 29, 2008.
2
    Delivery Point Validation is used to identify deliverable addresses.




                                                          2
Intelligent Mail/Seamless Acceptance Project                             MS-AR-09-006
 Management



Project Administration Procedures Need Strengthening

Project administration for IMB/SASP does not ensure that progress is effectively
monitored against planned performance. Industry best practices suggest tools and
techniques to assess project status and variances from the plan. Earned value analysis
is the most commonly used method of performance measurement for monitoring overall
project performance against a baseline. This technique considers several variables,
including work effort (hours) expended, remaining work to be performed, and a periodic
reassessment of the project’s duration. Monitoring actual effort expended in addition to
tracking milestones provides a more accurate percentage of project completion than
tracking milestones alone and enables managers to assess potential impacts on the
schedule in a more timely manner.

The Postal Service does not use resource-loaded work plans to manage projects. For
example, contractors’ planned tasks include estimated workhours; however, the Postal
Service’s planned tasks do not. The Postal Service manages project plans by
monitoring scheduled tasks against established milestones. Management set the
IMB/SASP implementation date to coincide with the May 2009 price change without first
considering the effort required to complete the tasks. Subsequently, the scope and
complexity of the project changed significantly as requirements were defined, resulting
in significantly increased costs and the need to delay scheduled releases. These
changes forced management to revise the current DAR and defer valuable benefits,
including support for service measurement; automated verifications of Delivery Point
Validation™, presort, and barcode quality; and automated business reply accounting.
Because management established schedules without thoroughly assessing the level of
effort required, the Postal Service had an increased risk that the project would miss
critical milestones or that the costs of meeting those milestones would exceed the
amounts envisioned.

We recommend the Vice President, Business Mail Entry and Payment Technologies,
and the Vice President, Information Technology Operations, direct the Manager,
Business Mail Acceptance, and the Manager, Information Platform Sales and
Marketing, to:

4. Incorporate effort-based workhour requirement estimates into work plans for future
   project releases.

Communications Management Plan Not Fully Developed

The Postal Service did not fully develop its communications management plan. While
management developed project plans for the IMB/SASP project with tasks beginning in
June 2008, the Full Service Program Management Office did not finalize a
communications plan until January 2009. This occurred because the Postal Service did
not integrate and centralize project management oversight for the IMB/SASP project




                                               3
Intelligent Mail/Seamless Acceptance Project                               MS-AR-09-006
 Management


until December 2008. Best practices suggest the majority of communications planning
should be accomplished in the earliest phases of a project and regularly reviewed and
revised as needed.

The Postal Service has developed several important avenues of communication with
the mailing industry that provide guidance and promote the benefits of Intelligent Mail,
including:

    •   Federal Register notices outlining key elements of the Basic and Full Service
        options.

    •   Mailers Technical Advisory Committee meetings and organized workgroups to
        share technical information with mailers and receive advice and
        recommendations from industry representatives.

    •   Intelligent Mail Symposiums held in various cities around the country to educate
        and promote Intelligent Mail.

    •   Informative documents, technical guidance, presentations, promotional tools, and
        videos available on the Postal Service’s Rapid Information Bulletin Board System
        (RIBBS) website, http://ribbs.usps.gov.

A plan for collecting and disseminating project information to the mailing community is
critical to ensuring that the Postal Service considers all stakeholders’ needs and
distributes the right information to the right stakeholders at the right time. Without an
effective communications plan for determining stakeholder information needs,
distributing information, managing stakeholder expectations, reporting performance, and
informing stakeholders of the benefits of the Full Service option, benefits to the Postal
Service and mailers may not be maximized.

During our audit, management developed detailed communications and training plans
for the IMB/SASP project for both Postal Service employees and mailers. Therefore,
we are making no recommendations at this time.

Risk Management Plan Not Developed

The Postal Service did not develop a risk management plan to monitor and control risks
related to the IMB/SASP project. In the May 2008 DAR, the Postal Service designated
risks associated with IMB/SASP technology, integration, and operations as high. The
scope, complexity, and importance of this project to the Postal Service and the mailing
industry warrant preparation of a formal risk management plan to ensure effective and
timely responses to project risks, and to minimize the probability and impact of adverse
events that could affect the scope, schedule, cost, or quality of the project. A risk
management plan was not developed because the Postal Service did not integrate and




                                               4
Intelligent Mail/Seamless Acceptance Project                                                MS-AR-09-006
 Management


centralize project management oversight for the IMB/SASP project until December
2008.

Management stated that they discussed and managed issues and risks on an ongoing
basis during weekly planning meetings. However, moving forward on a project without
a formal risk management plan and a proactive focus on risk increases the impact on
the project if the risk is realized and can lead to project failure.

We recommend the Senior Vice President, Intelligent Mail and Address Quality,
coordinate with the Vice President, Information Technology Operations, to direct the
Vice President, Business Mail Entry and Payment Technologies, and the Manager,
Information Platform Sales and Marketing, to:

5. Develop a risk management plan to address project risks. The plan should define a
   process for conducting risk management activities, including identifying risks;
   prioritizing and analyzing risks; planning risk responses; and monitoring and
   controlling risks.

Procurement Management Plan Not Developed

The Postal Service did not develop a procurement management plan to administer and
control IMB/SASP procurements. Such a plan should be developed at the beginning of
a project to document an overall strategy for making purchasing decisions, managing
procurement relationships, and monitoring contractor performance. According to the
Postal Service’s purchasing guidelines in USPS Supplying Principles and Practices, as
revised December 2008, the plan should include the statement of objectives, statement
of work, sourcing strategy, resource funding and cost estimates, delivery schedule,
quality assurance plan, and supplier reporting requirements. A procurement
management plan was not developed because the Postal Service did not integrate and
centralize project management oversight for the IMB/SASP project until December
2008.

The cost of the IMB/SASP project currently totals $116.4 million, including $63.9 million
in capital equipment (hardware and software) funding.3 Without a procurement plan for
IMB/SASP-related purchases, the quality and timeliness of deliverables may be
adversely impacted and costs may not be adequately controlled.

We recommend the Senior Vice President, Intelligent Mail and Address Quality, direct
the Vice President, Business Mail Entry and Payment Technologies, to:

6. Develop a procurement plan consistent with the Postal Service’s purchasing
   guidelines to manage procurements related to the project.

3
 xxxx xxxxxxx xxxxxxxxx xxx xxxxxx xxxxxxxxx xxxxxxxxx xxxxxxxxxxx xxx xxxxxxx xxxxxxxxxxxx xxxxxxxx xx xxx
xxxxxxx xxx, xxxxxxxxxxxxxx xx xxxxxxx xxxxxxxxxxx xxxx xxxxxxxx, xxxxxxx xxxxxxxxxxx xxx xxxxxxxx xxxxxxxxxx,
xxx xx, xxxx. xxx xxxxxx xxxxxxx xx xxxxxxxxx xxxxxxxx xxx xxx.




                                                      5
Intelligent Mail/Seamless Acceptance Project                                MS-AR-09-006
 Management


Management’s Comments

Management disagreed with the conclusions of the audit; however, they agreed that
various aspects of project management should be improved. Management partially
agreed with recommendations 1 and 3 and agreed with recommendations 2, 4, 5, and
6. Regarding recommendation 1, management will track workhour cost reduction
benefits realized in Business Mail Acceptance activities as a result of Performance
Based Verification and staffing improvements beginning in fiscal year (FY) 2010, but
cited limitations to their ability to measure the portion of the improvement attributable to
the Intelligent Mail application. To address recommendation 2, management will
prepare an integrated project budget to track and report costs for Release 2. For
recommendation 3, management stated developing cost savings estimates for
Releases 1 or 2 is inappropriate, but they would consider developing these estimates if
deemed appropriate for any future releases. For recommendation 4, management will
incorporate effort-based workhour estimates into Releases 2 and 3. Management
agreed with recommendation 5, but stated a risk management plan is already in place.
Finally, to address recommendation 6, management will develop a procurement plan for
Release 2. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 2, 4 and 6, and their corrective actions
should resolve the issues identified in the report. However, management’s comments
are only partially responsive to recommendations 1, 3, and 5 and will not fully resolve
the issues identified in the report. Concerning recommendations 1 and 3, we believe it
is essential that the Postal Service identify both the benefits and the costs of
implementing Intelligent Mail. Concerning recommendation 5, although management’s
response asserts the existence of a risk management plan, we have not received a
copy of it despite numerous requests dating back to December 2008. While issues and
risks may be managed on an ongoing basis during weekly planning meetings, a formal
risk management plan is important to ensure consistent, effective and timely responses
to project risks. Although this project is significant, we do not intend to pursue these
recommendations through the formal audit resolution process. However, we may do
additional audit work in the future on this project.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               6
Intelligent Mail/Seamless Acceptance Project                             MS-AR-09-006
 Management


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert P. Mitchell, Director,
Sales and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc:     Robert E. Dixon, Jr.
        Robert I. Galaher
        Katherine S. Banks




                                               7
Intelligent Mail/Seamless Acceptance Project                                 MS-AR-09-006
 Management



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service currently has an initiative under way to implement a $116.4 million
DAR, including $63.9 million in capital funding, to create infrastructure to facilitate the
2009 IMB deployment, support the requirements of the 2006 Postal Accountability and
Enhancement Act to measure service performance, and automate several business
mail verification activities.

Intelligent Mail

The Intelligent Mail vision is to provide end-to-end visibility and a seamless process for
mail acceptance and delivery using electronic documentation; standardized intelligent
barcodes; continuous mail tracking; mail quality feedback in real time; and service
measurements for letters, flats, and parcels. The Postal Service proposed two options
for using IMBs to qualify for automation prices starting in 2009. Under the Basic option,
mailers can use the IMB or the POSTNET barcode on their letter and flat mailpieces.
Under the Full Service option, mailers will be required to apply unique IMBs on their
letter and flat mailpieces, trays and sacks, and other containers. Full Service mailers
will also be required to submit postage statements and mailing documentation
electronically.

In November 2009, there will be two automation pricing tiers, with the lowest automation
prices for the Full Service option. By May 2011, all mailers must have the IMB to qualify
for automation discounts.

Seamless Acceptance

Seamless Acceptance will automate several aspects of business mail verification for
letters and flats from mailers electing the Full Service option. Full Service mailers will
use electronic documentation to give the Postal Service detailed information, including
advance notification of the mailing. The Postal Service will scan the barcodes on these
mailings, then use the information to verify electronic documentation submitted by the
mailers and determine mail preparation quality.

System Description

The Postal Service will enhance the PostalOne! system to enable the acceptance and
verification of mail prepared according to Basic or Full Service IMB requirements.
Mailers’ electronic documentation will contain detailed IMB information physically
applied to mailpieces, trays, sacks, and other containers. The Postal Service will
analyze and reconcile Full Service electronic documentation with Mail Processing
Equipment (MPE) IMB scans to ensure that the mail qualifies for the prices claimed.




                                               8
Intelligent Mail/Seamless Acceptance Project                                                     MS-AR-09-006
 Management


Obtaining scanned data from the MPE and using software to analyze and reconcile that
data automates several verification tasks, including presort verification, barcode quality
checks, Delivery Point Validations, and undeliverable-as-addressed counts. These
tasks were previously performed using manual processes or the Mail Evaluation
Readability Lookup INstrument.

Risks to Program Success

In the May 2008 DAR, the Postal Service designated risks associated with IMB/SASP
technology, integration, and operations as high. These high risks are due primarily to
dependence on customer adoption of IMBs and electronic documentation; the Postal
Service’s readiness to support Full Service IMB implementation; the scope and
complexity of system development; and the need to collect and analyze enormous
amounts of piece-level data from mailing manifests and mail processing scans. The
Postal Service must be able to accept and verify mailings prepared according to the
requirements defined under the Basic and Full Service IMB options; collect and compile
mailpiece scan information; and reconcile mailers’ electronic mailing information to
validate Intelligent Mail preparation. These capabilities require an infrastructure capable
of capturing and storing large volumes of mailing data.

The Postal Service is using a software development schedule to track and monitor
major milestones for meeting the proposed deployment date. Management must
implement appropriate project management standards and controls to ensure the
project’s success.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the Postal Service’s approach to managing the IMB/SASP
project.4 To accomplish our objective, we:

    •    Reviewed recognized best practices related to effective project management.

    •    Interviewed program managers and contractor staff to obtain an understanding of
         the IMB/SASP project planning and administration activities.

    •    Reviewed available project planning documentation to assess completeness.

    •    Reviewed project plan schedules and available budget and expenditure tracking
         worksheets to obtain an understanding of the project’s current status.

    •    Assessed the Postal Service’s efforts to measure financial benefits and related
         costs associated with implementing Intelligent Mail and Seamless Acceptance.
4
 Concurrent with this project, a separate OIG report, Intelligent Mail Barcode Project Planning and Application
Development Life Cycle, Report Number IS-AR-09-006, March 31, 2009, was issued to focus on the application
development aspects of this project.




                                                         9
  Intelligent Mail/Seamless Acceptance Project                                MS-AR-09-006
   Management



  We conducted this performance audit from September 2008 through March 2009 in
  accordance with generally accepted government auditing standards and included such
  tests of internal controls as we considered necessary under the circumstances. Those
  standards require that we plan and perform the audit to obtain sufficient, appropriate
  evidence to provide a reasonable basis for our findings and conclusions based on our
  audit objective. We believe that the evidence obtained provides a reasonable basis for
  our findings and conclusions based on our audit objective. We discussed our
  observations and conclusions with management officials on March 6, 2009, and
  included their comments where appropriate.

  PRIOR AUDIT COVERAGE

                                             Final
                          Report                       Monetary
  Report Title                              Report                      Report Results
                          Number                        Impact
                                             Date
Status of                DA-AR-08-          May 28,      N/A      Management upgraded key
Intelligent Mail          005(R)             2008                 letter and flat MPE, and the
Enabling                                                          MPE is capable of scanning
Infrastructure                                                    the new IMB. In addition,
                                                                  more than 300 Postal
                                                                  Service facilities were
                                                                  upgraded with increased
                                                                  network capacity due to the
                                                                  early completion of Phase III
                                                                  of the Mail Processing
                                                                  Infrastructure program.

                                                                  The Postal Service material
                                                                  handling group was taking
                                                                  proactive steps to prepare
                                                                  for the transition to the
                                                                  24-digit Intelligent Mail tray
                                                                  barcode. However,
                                                                  clarification of requirements
                                                                  was needed to ensure
                                                                  material handling systems
                                                                  fully support future
                                                                  Intelligent Mail programs.
                                                                  Management agreed with
                                                                  the recommendation to
                                                                  clarify the 24-digit barcode
                                                                  requirements and funding
                                                                  for material handling




                                                  10
  Intelligent Mail/Seamless Acceptance Project                         MS-AR-09-006
   Management


                                                             systems. They also agreed
                                                             to ensure contingency plans
                                                             for the Integrated Data
                                                             System/National Directory
                                                             Support System server
                                                             consolidation program
                                                             include extended
                                                             maintenance for
                                                             microcomputers or provide
                                                             for other appropriate
                                                             contingency plans if
                                                             deployment is delayed
                                                             beyond 2009.
Intelligent Mail         DA-AR-06-         December   N/A   The Postal Service’s
Data Acquisition            001            22, 2005         initial requirement for
System                                                      Intelligent Mail device
                                                            units was a
                                                            reasonable,
                                                            conservative
                                                            purchase approach.
                                                            Although unit
                                                            requirements and the
                                                            process used to
                                                            negotiate prices were
                                                            logical, the OIG was
                                                            concerned about the
                                                            risk of higher
                                                            maintenance costs if
                                                            deployment was
                                                            delayed further.
                                                            Management agreed
                                                            with the
                                                            recommendation to
                                                            develop a recovery
                                                            plan, which minimizes
                                                            delays in the
                                                            deployment schedule.




                                                 11
Intelligent Mail/Seamless Acceptance Project                MS-AR-09-006
 Management


                        APPENDIX B: MANAGEMENT’S COMMENTS




                                               12
Intelligent Mail/Seamless Acceptance Project        MS-AR-09-006
 Management




                                               13
Intelligent Mail/Seamless Acceptance Project        MS-AR-09-006
 Management




                                               14
